September 2009
Report No. AUD-09-026


Material Loss Review of Sherman
County Bank, Loup City, Nebraska




            AUDIT REPORT
                                                    Report No. AUD-09-026                                                                  September 2009

                                                    Material Loss Review of Sherman County Bank,
                                                    Loup City, Nebraska
   Federal Deposit Insurance Corporation
                                                    Audit Results
Why We Did The Audit
                                                    Causes of Failure and Material Loss - SCB failed primarily due to the bank BOD’s and management’s
As required by section 38(k) of the                 decision to increase and fund loan commitments without adequately considering the borrowers’ ability to
Federal Deposit Insurance Act, the OIG              repay and the sufficiency of the underlying collateral. These loans were made to 34 agricultural customers
                                                    participating in a Commodity Marketing Program (Program). The activities of the Program, principally the
conducted a material loss review of the
                                                    purchase and sale of commodity futures and options contracts, resulted in significant losses to these
failure of Sherman County Bank (SCB),
                                                    customers in late 2008 and early 2009. To facilitate continued Program trading, SCB increased and funded
Loup City, Nebraska. On February 13,                customer loan commitments, often in apparent violation of Nebraska’s legal lending limits (LLL), to
2009, the Nebraska Department of                    individual borrowers and without due regard for sound risk management controls, including those associated
Banking and Finance (NDBF) closed the               with assessing a customer’s ability to repay and collateral asset value. SCB also relied heavily on volatile
SCB and named the FDIC as receiver.                 funding such as brokered deposits and large time deposits to fund the significant increases in its loans to
On March 4, 2009, the FDIC notified the             Program participants. As SCB funded these loans, the bank’s credit concentration related to the Program
Office of Inspector General (OIG) that              and the bank’s overall risk exposure significantly increased. Ultimately, losses associated with these loans
SCB’s total assets at closing were $126.6           depleted capital and strained liquidity, resulting in the bank’s failure.
million with a material loss to the Deposit
Insurance Fund (DIF) estimated at $28               Specifically, during late 2008 and early 2009, SCB increased loan commitments and resulting funding,
million. Since that time, the loss has              totaling $46.2 million, to cover trades made by the Program’s broker. During the same period, SCB
decreased to $26.8 million.                         increased its use of brokered and time deposits by $34 million to help fund these loans. The increases in
                                                    these loan commitments resulted in over 300 apparent violations of the LLL totaling nearly $24 million. In
The audit objectives were to                        addition, collateral for the Program loans was not sufficient to support the increased commitments. At the
(1) determine the causes of the financial           time of SCB’s failure in February 2009, total collateral for the $62.2 million in Program loans was valued at
institution’s failure and resulting material        $31.5 million, or a loan-to-value ratio of 198 percent. The FDIC classified $31.7 million of the $62.2
loss to the DIF and (2) evaluate the                million in Program loans as loss, which significantly exceeded SCB’s capital. SCB did not adequately
FDIC’s supervision of the institution,              assess the risk that the third-party arrangement posed to the bank prior to increasing loan commitments to
                                                    Program participants.
including implementation of the Prompt
Corrective Action (PCA) provisions of               Assessment of FDIC Supervision and Implementation of PCA – The FDIC and NDBF provided regular
section 38.                                         oversight of SCB, including conducting risk management examinations and visitations. However, we
                                                    identified one area where the FDIC’s supervision could have been improved. The FDIC could have taken
Background                                          earlier and more assertive action related to SCB’s third-party arrangement for the Program. The FDIC’s
                                                    examinations of SCB conducted in 2005 and 2008 reviewed the Program; however, the extent of the reviews
SCB was a state-chartered nonmember bank            was limited, and review results were not adequately documented. Specifically, the FDIC reviews did not
that was established on June 27, 1932 and           fully assess the risk that the third-party arrangement posed to SCB and ensure that the bank established and
insured on January 1, 1934. SCB was                 appropriately implemented controls necessary to identify, measure, monitor, and control those risks. In
headquartered in Loup City, Nebraska. At            particular, as a result of the 2008 examination, the FDIC recognized that there were deficiencies in SCB’s
closing, the bank had three branch offices in       lending activities but did not ensure that SCB’ Loan Policy included adequate guidance to limit: (1) loan
Nebraska and one affiliate. Sherman                 commitments in relation to the borrower’s ability to repay and collateral value for Program loans and (2) the
County Management, Incorporated, a one-             concentration in Program loans.
bank holding company, was the parent
company of SCB.                                     In January 2009, SCB management informed the FDIC that the bank was likely insolvent due to losses on
                                                    Program loans. As a result, the NDBF and FDIC took appropriate and immediate action. In February 2009,
SCB provided traditional banking activities         the FDIC conducted a visitation and issued a Prompt Corrective Action Notification on February 4, 2009,
within its local marketplace and specialized        notifying the bank that SCB was considered to be Critically Undercapitalized. On February 5, 2009, the
in agricultural lending. SCB participated in        NDBF informed SCB that the bank needed to obtain additional capital totaling $34.1 million by
a Commodity Marketing Program that                  February 12, 2009. In addition, the FDIC issued a Cease and Desist Order, on February 7, 2009, which
included 34 of the bank’s agricultural              required the bank to take various actions, including increasing capital and improving bank management and
customers, a program broker, and SCB as             the quality of SCB’s loan portfolio. However, the bank was not able to raise the additional capital. Earlier
part of a third-party arrangement.                  recognition of the significance of the risk that the third-party arrangement posed to SCB and deficiencies in
                                                    SCB’s loan policy could have led to elevated supervisory attention and more timely supervisory action.
The FDIC has recognized the increased risk
that third-party arrangements present to            Management Response
financial institutions and issued guidance in
2008 that describes a risk management               The Director, Division of Supervision and Consumer Protection (DSC), provided a written response to the
framework to effectively identify, measure,         draft report. DSC stated that SCB failed primarily due to the BOD’s and management’s decision to increase
monitor, and control those risks. That              and fund loans without adequately considering the borrowers’ ability to repay and the sufficiency of the
framework should include effective                  underlying collateral. DSC stated that at the time of the July 2008 examination, the Program was operating
oversight by bank management, including             within its parameters, and there was more than adequate commodity and market account collateral to repay
the board of directors (BOD) and senior             the outstanding loans. DSC continued that examiners had discussed the importance of the Program hedging
executives, and an effective third-party risk       parameters and LLL with SCB management during the 2008 examination, yet management ignored internal
management program, including risk                  controls and LLL only 3 months later. DSC acknowledged that earlier and more complete recognition of the
assessment, due diligence in selecting a            risks posed by the single-broker arrangement and the weaknesses in SCB’s internal controls could have led
third party, contract structuring and review,       to elevated supervisory attention and more timely supervisory action. DSC also acknowledged the
and oversight.                                      importance of commodity price protection programs to the agriculture industry and supports well-controlled
                                                    risk management programs designed to hedge against commodity market price fluctuations.
   To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                                    Page


BACKGROUND                                                                  2


CAUSES OF FAILURE AND MATERIAL LOSS                                          3
  Inadequate Risk Management Controls                                        4
     Credit Concentration and Open-Ended Funding for Program Loans           4
     Material Violations of the State of Nebraska’s LLL                      6
     Inadequate Underlying Collateral                                        8
     Inadequacy of, and Noncompliance With, the Loan Policy                  9
  Inadequate ALLL Methodology and Funding                                   10
  Heavy Reliance on Volatile Funding Sources                                10
  Assessment of Third-Party Risk                                            11

ASSESSMENT OF SUPERVISION                                                   13
  Historical Snapshot of FDIC Supervision                                   13
  OIG Assessment of FDIC Supervision                                        15
      Third-Party Risks Related to the Program                              16
         FDIC Follow-up on Regulatory Concerns                              16
         Heightened Risk to SCB                                             16
      Noncompliance with Examination Guidance Related to Third-Party Risk   18
      Loan Policy                                                           19
      Conclusion                                                            20

IMPLEMENTATION OF PCA                                                       20

CORPORATION COMMENTS                                                        21

APPENDICES
  1. OBJECTIVES, SCOPE, AND METHODOLOGY                                     23
  2. ADDITIONAL REGULATORY ACTIVITIES RELATED TO SCB                        25
  3. GLOSSARY OF TERMS                                                      27
  4. CORPORATION COMMENTS                                                   29
  5. ACRONYMS USED IN THE REPORT                                            30

FIGURE
   SCB’s Apparent Violations of Nebraska’s LLL                               7

TABLES
  1. Financial Condition of Sherman County Bank                              3
  2. Concentration in Program Loans                                          5
  3. Funding Sources Used for the Significant Increases in Program Loans    11
  4. Examination Dates and CAMELS Ratings                                   14
  5. Examples of FDIC Comments Regarding the Program and SCB                17
  6. SCB’s Capital Ratios Compared to Peer Group                            21
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 4, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection

                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  Material Loss Review of Sherman County Bank, Loup City,
                                          Nebraska (Report No. AUD-09-026)


As required by section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Office
of Inspector General (OIG) conducted a material loss1 review of the failure of Sherman
County Bank (SCB). On February 13, 2009, the Nebraska Department of Banking and
Finance (NDBF) closed the institution and named the FDIC as receiver. On March 4,
2009, the FDIC notified the OIG that SCB’s total assets at closing were $126.6 million
with an estimated loss to the Deposit Insurance Fund (DIF) of $28 million. Since that
time, the loss decreased to $26.8 million.

When the DIF incurs a material loss with respect to an insured depository institution for
which the FDIC is appointed receiver, the FDI Act states that the Inspector General of the
appropriate federal banking agency shall make a written report to that agency which
reviews the agency’s supervision of the institution, including the agency’s
implementation of FDI Act section 38, Prompt Corrective Action (PCA); ascertains why
the institution’s problems resulted in a material loss to the DIF; and makes
recommendations to prevent future losses.

The audit objectives were to: (1) determine the causes of the financial institution’s
failure and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision2 of
the institution, including implementation of the PCA provisions of section 38 of the FDI
Act. Appendix 1 contains details on our objectives, scope, and methodology; Appendix 2
provides a summary of previous regulatory activities related to SCB; Appendix 3
contains a glossary of terms; and Appendix 5 contains a list of acronyms used in the
report.


1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices, including internal control systems; and compliance with applicable laws and
regulations; and (2) issues related guidance to institutions and examiners.
    This report presents the FDIC OIG’s analysis of SCB’s failure and the FDIC’s efforts to
    ensure bank management operated the bank in a safe and sound manner. We are not
    making recommendations. Instead, as major causes, trends, and common characteristics
    of financial institution failures are identified in our reviews, we will communicate those
    to management for its consideration. As resources allow, we may also conduct more in-
    depth reviews of specific aspects of the FDIC’s supervision program and make
    recommendations, as warranted.

BACKGROUND

    SCB was a state-chartered savings bank, established on June 27, 1932 by the NDBF, and
    insured by the FDIC effective January 1, 1934.3 SCB, which was headquartered in Loup
    City, Nebraska:

             •    had three branch offices—one each in Danneborg, Farwell, and St. Paul,
                  which are located in Howard County, Nebraska—and one affiliate;

             •    provided traditional banking activities within its marketplace; and

             •    specialized in agricultural lending that included funding commodity marketing
                  activities for farmers.

    Sherman County Management, Incorporated, a one-bank holding company, was the
    parent company of SCB. Details on SCB’s financial condition, as of December 31, 2008,
    and for the 4 preceding calendar years follow in Table 1.




    3
      The Banking Act of 1933, which created the FDIC, was signed by the President on June 16, 1933. The FDIC began
    insuring institutions on January 1, 1934.
                                                           2
    Table 1: Financial Condition of Sherman County Bank
                                               31-Dec-08      31-Dec-07          31-Dec-06       31-Dec-05       31-Dec-04
                                                                             (Dollars in Thousands)
    Total Assets                                $135,431           $96,435          $90,829           $87,065     $85,760
    Total Deposits                               $90,647           $69,449          $65,853           $59,524     $60,187
    Total Loans                                 $108,190           $66,134          $61,584           $55,295     $53,735
    Total Agricultural Loans                     $73,242           $29,645          $29,492           $24,474     $23,344
    Total Brokered Deposits                      $19,186              $990           $2,320               $271         $0
    Loan Growth Rate                             65.04%             7.76%           11.50%             3.18%       3.26%
    Loan Mix (% of Loans)
    Agricultural Loans                           55.05%            46.81%           46.59%            44.50%      45.82%
    Loans Secured by Real Estate                 29.79%            33.59%           33.48%            35.75%      35.54%
    Commercial and Industrial Loans              10.02%            13.56%           13.84%            13.58%      12.47%
    All Other Loans                               1.87%             1.22%            1.02%             1.12%       1.04%
    Loans to Individuals                          3.63%             5.31%            5.58%             5.51%       5.56%
    Funding
    Loans/Deposits                                117.69%         93.08%          91.09%            90.38%         86.63%
    Core Deposits/Average Assets                  45.17%          58.95%          60.84%            59.41%         59.14%
    Brokered/Average Assets                         4.64%           1.82%           1.61%              .21%             0%
    Large Time/Average Assets                     15.46%          12.11%          11.59%            10.06%         10.80%
    Borrowings/Average Assets                     16.91%          17.97%          18.47%            20.81%         20.90%
    Examination/Visitation Information           02/02/09*        7/21/08          1/16/07          5/31/05        11/17/03
                                                 FDIC and
    Examination Conducted By                       NDBF            FDIC            NDBF              FDIC           NDBF
                                      a                    b
    Component/Composite Ratings                  555555/5        222121/2        122121/2          222111/2       122111/2
    Adverse Classifications Ratio                   53%            2.55%           3.56%             4.88%          3.19%
    Source: OIG analysis of Uniform Bank Performance Report (UBPR).
    a
      Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS) to
    evaluate a bank’s performance in six components represented by the CAMELS acronym: Capital adequacy, Asset
    quality, Management practices, Earnings performance, Liquidity position, and Sensitivity to market risk. Each
    component, and an overall composite score, is assigned a rating of 1 through 5, with 1 having the least regulatory
    concern and 5 having the greatest concern.
    b
      FDIC Visitation.


CAUSES OF FAILURE AND MATERIAL LOSS

    SCB failed primarily due to the bank Board of Directors’ (BOD) and management’s
    decision to increase and fund loan commitments without adequately considering the
    borrowers’ ability to repay and the sufficiency of the underlying collateral. These loans
    were made to 34 agricultural customers participating in a Commodity Marketing
    Program4 (Program). The activities of the Program, principally the purchase and sale of
    commodity futures and options contracts, resulted in significant losses to these customers
    in late 2008 and early 2009. In order to facilitate continued Program trading, SCB
    increased and funded individual borrower’s loan commitments,5 often in apparent
    4
      In 1999, SCB entered into a third-party arrangement for the benefit of some of its agricultural customers.
    Specifically, SCB began a Commodity Marketing Program with a third-party broker that was designed to
    assist these customers in the purchase and sale of futures and option contracts on commodities. A key
    component of this agreement was that the broker could make draws against the customer’s loans. This key
    component remained unchanged (refer to Appendix 2 for additional information).
    5
      SCB required participants to sign promissory notes to facilitate the funding for the Program.
                                                               3
      violation of Nebraska’s legal lending limits (LLL) and without due regard for sound risk
      management controls, including those associated with assessing the customers’ ability to
      repay and collateral asset value. SCB also relied heavily on volatile funding such as
      brokered deposits and large time deposits to fund the significant increases in its loans to
      Program participants. As SCB funded these loans, the bank’s credit concentration related
      to the Program and overall risk exposure significantly increased. Ultimately, losses
      associated with these loans depleted capital and strained liquidity, resulting in the bank’s
      failure.

      Specifically, during late 2008 and early 2009, SCB increased loan commitments and
      resulting funding that totaled $46.2 million to cover trades made by the Program’s
      broker. During the same period, SCB increased its use of brokered and time deposits by
      $34 million to help fund these loans. The increases in these loan advances, totaling
      $23.9 million, resulted in over 300 apparent violations of the LLL. In addition, collateral
      for the Program loans was not sufficient to support the increased commitments. At the
      time of SCB’s failure in February 2009, total collateral for the $62.2 million in Program
      loans was valued at $31.5 million, or a loan-to-value ratio of 198 percent. The FDIC
      classified $31.7 million of the $62.2 million in Program loans as loss, which significantly
      exceeded SCB’s capital. SCB did not adequately assess the risk that the third-party
      arrangement posed to the bank prior to increasing loan commitments to Program
      participants.

Inadequate Risk Management Controls

      SCB’s BOD and senior management did not implement adequate risk management
      controls over the lending for the Program and failed to protect the operations of the bank.
      These control weaknesses included:

          •   credit concentration of, and open-ended funding6 for, Program participant loans,

          •   material violations of the State of Nebraska’s LLL,

          •   inadequate underlying collateral for Program participant loans, and

          •   inadequacy of, and noncompliance with, the bank’s Loan Policy.

      The BOD’s failure to ensure that bank management implemented and followed adequate
      risk management controls, especially during the last quarter of 2008 and early 2009,
      materially affected the bank’s overall financial condition, and eventually led to the bank’s
      insolvency in February 2009.

      Credit Concentration and Open-Ended Funding for Program Loans. SCB’s BOD
      and management did not adequately address the risks associated with the concentration in
      agricultural loans for Program participants and the open-ended funding for those loans.

      6
        Open-ended funding refers to SCB providing loan commitments without regard for the borrower’s ability
      to repay or the adequacy of the underlying collateral.

                                                         4
SCB’s credit concentration related to the Program loans was first noted during the
NDBF’s January 2007 examination when these loans totaled $2.9 million or
34.78 percent of SCB’s Tier 1 Capital. During the FDIC’s July 2008 examination, the
FDIC reported that the credit concentration was almost $16 million or 183 percent of
Tier 1 Capital. By the time SCB failed, the concentration had increased to over
$62 million. As of January 2009, $62.2 million or 78 percent of SCB’s total agricultural
loans were loans advanced by SCB to cover commodity trading activities for the Program
participants. All of these loans were adversely classified by examiners in February 2009.
Further, examiners determined that SCB had only $12.5 million in capital and reserves,
which was insufficient to cover the adverse classifications of $62.2 million. In addition,
the associated collateral, which is discussed later in this report, was grossly inadequate.
Table 2 summarizes the Program loans for the period May 2005 to January 2009.

    Table 2: Concentration in Program Loans
                                                                       Examination Date
                                                                     (Dollars in Thousands)
                         Loan Category
                                                                January         July     January
                                                                  2007         2008        2009
     Total Program Loans ($000)                                    $2,900      $16,000    $62,200
     Program Loans as a Percentage of Total Agricultural
                                                                      11%          47%         78%
     Loans
    Source: SCB’s UBPRs and examination work papers.


From the July 2008 examination to early 2009, SCB management did not implement
controls to limit the level of funding associated with the Program. Specifically:

     •   The third-party arrangement provided for open-ended funding to cover Program
         loans.

     •   SCB’s Loan Policy did not include controls related to LLL, borrowers’ ability to
         repay debt, and adequacy of collateral (these issues are discussed in more detail
         later in this report).

Implementation of such controls would have allowed the bank to (1) limit amounts
loaned to Program participants, (2) ensure compliance with state laws regarding LLL, and
(3) limit the negative financial consequences to the bank.

The documentation for the three-way arrangement entitled, Security Agreement and
Assignment of Hedging Account,7 included a control mechanism that would have
protected the bank’s viability if the BOD had implemented it. The agreement states:

         Whenever Secured Party deems it necessary for its protection, it shall be
         entirely without the consent or concurrence of or prior to Debtor, to direct



7
 Hedging refers to the practice of reducing price risk associated with the production, marketing, and
processing of a commodity by taking opposite positions in futures or option markets.

                                                       5
            the Broker to liquidate any or all of the outstanding open positions in the
            Account.8

Contrary to this provision, SCB’s BOD and management chose to continue to
fund the loans. As a result, by January 2009, the concentration had increased by a
total of $46.2 million as follows.

    •       $26.3 million in October 2008,
    •        $7.9 million in November 2008,
    •        $7.0 million in December 2008, and
    •        $5.0 million in January 2009.

According to DSC officials, had the bank implemented this control in September
2008 and liquidated the borrowers’ accounts, the bank would not have failed.

According to SCB’s Loan Committee minutes, in October 2008, committee members
were concerned about the Program loans. The minutes also indicated that the committee
planned to take action to limit the Program in the future. However, action to stop the
funding either was not taken or was not effective because SCB continued to provide
substantial funding for these loans. As the funding increased, the bank’s risk and
exposure also increased.

Part 364, Appendix A, Interagency Guidelines Establishing Standards for Safety and
Soundness, states that an institution should establish and maintain loan documentation
practices and prudent credit underwriting that:

        •   adequately account for concentrations of credit risk and

        •   identify the purpose of a loan and the source of repayment and assess the ability
            of the borrower to repay the indebtedness in a timely manner.

During the last quarter of 2008 and early 2009, SCB significantly increased the funding
for 34 Program loans by $46.2 million without regard for the customers’ ability to repay
and in noncompliance with the State of Nebraska’s LLL, as discussed in the following
paragraphs. Further, SCB’s BOD and management failed to effectively diversify the
bank’s loan portfolio during the end of 2008 and early 2009.

Material Violations of the State of Nebraska’s LLL. SCB did not comply with the
State of Nebraska’s LLL laws designed to help banks avoid concentrations of lending to
individuals. SCB violated Nebraska Statute 8-141, which states that a bank shall not
directly or indirectly make loans to any one person or corporation which, in the
aggregate, exceed 25 percent of the bank’s Tier 1 Leverage Capital. However, examiners
determined that from June 2008 through January 2009, SCB’s advances, which totaled


8
 The Secured Party refers to SCB, Debtor refers to the Program participants, and Broker refers to the
Futures Commission Merchant.

                                                     6
$23.9 million, to fund Program loans resulted in 300 violations of Nebraska’s LLL.
Figure 1, which follows, provides a summary of the apparent violations.

SCB’s Apparent Violations of Nebraska’s LLL

                                                     SCB's Cumulative Violations of the LLL

                                     350
    Total Number of LLL Violations




                                     300                                                                             300

                                     250                                                                   257

                                     200                                                         196
                                     150
                                                                                       137
                                     100                                      99
                                                                  69
                                     50                  44
                                      0        10
                                           Jun-08   July-08   Aug-08   Sept-08     Oct-08    Nov-08    Dec-08    Jan-09
                                                                         Month/Year

Source: NDBF’s analysis of SCB loan documentation.


In the July 2008 Report of Examination (ROE), FDIC examiners cited the bank for five
apparent violations of the state’s LLL. Of the five advances that totaled $410,000, four
advances, totaling $218,000, were extended beyond the LLL to fund some of the Program
loans. During the FDIC’s July 2008 examination, SCB:

                                    Took action to obtain participation loans to correct the LLL violations for these
                                     four loans. The fifth advance was in excess of the LLL for reasons other than
                                     Program loans.

                                    Agreed to improve day-to-day monitoring of lending to ensure that the bank did
                                     not exceed the LLL in response to the FDIC’s recommendation.

Although SCB was cited for apparent LLL violations during the July 2008 examination,
bank management disregarded its responsibility to comply with laws and regulations and
failed to implement appropriate and effective corrective actions to avoid future apparent
LLL violations.




                                                                          7
According to the DSC Risk Management Manual for Examination Policies (Examination
Manual):

   •   The underlying rationale for laws and regulations is the protection of the general
       public by establishing boundaries and standards within which banking activities
       may be conducted.

   •   It is important for BODs to ensure that executive management is cognizant of
       applicable laws and regulations and develop a system to effect and monitor
       compliance.

   •   BODs cannot be expected to be personally knowledgeable of all laws and
       regulations. However, the BOD should make certain that compliance with all
       laws and regulations receives high priority and violations are not knowingly
       committed by BOD members or anyone the bank employs.

SCB’s BOD did not ensure that bank management complied with laws and regulations.
Although bank management and the BOD were alerted to apparent LLL violations during
the June 2008 examination and the bank took action to address those apparent violations,
SCB’s BOD did not ensure that timely and effective action was taken to prevent future
violations.

Inadequate Underlying Collateral. SCB did not establish a loan review system to
identify, monitor, and control the adequacy of the underlying collateral for the
34 Program loans to ensure the repayment of the debt. Part 364, Appendix A,
Interagency Guidelines Establishing Standards for Safety and Soundness, states that an
institution should establish and maintain loan documentation practices and prudent credit
underwriting that provide for consideration, prior to credit commitment, of the:

   •   borrower’s overall financial condition and resources,
   •   the financial responsibility of any guarantor,
   •   the nature and value of any underlying collateral, and
   •   the borrower’s character and willingness to repay as agreed.

According to DSC’s Examination Manual, each financial institution is expected to
establish an internal loan-to-value limit, which should not exceed 65-85 percent
depending on the loan category. However, SCB did not ensure that the collateral for the
34 loans was adequate to ensure the repayment of the debt. In addition, loan-to-value
ratios for 29 of the 34 Program loans exceeded and, in some cases, significantly exceeded
85 percent. At the time of SCB’s failure in February 2009, total collateral for those loans
was valued at $31.5 million of the $62.2 million funded for the Program loans, or a loan-
to-value ratio of 198 percent. Loan-to-value ratios for 16 (47 percent) of the 34 Program
loans was more than 200 percent.

Contrary to this guidance, SCB did not adequately consider the concentration risk, ensure
that the debt was secured by adequate collateral, and take steps to restrict/limit the


                                            8
amount of funding for the Program loans to ensure that the borrowers had the ability to
repay the loans. In addition, SCB’s BOD and management made loans for which the
loan-to-value limits far exceeded industry standards.

Inadequacy of, and Noncompliance with, the Loan Policy. SCB’s Loan Policy
included some guidance related to agricultural loans but did not include all areas
suggested in DSC’s Examination Manual. SCB’s loan guidance included lending limits,
in terms of dollar value, for each loan officer and a general loan supervision policy and
stated that all secured loans should have an ample margin of safety between the funds
borrowed and the current market value of the collateral.

The Loan Policy addressed loan-to-value for real estate loans but did not specifically
address the Program loans. Further, the Loan Policy (1) acknowledged that the bank had
a concentration of credit in agricultural loans due to the nature of the bank’s local
economy and (2) stated that when concentrations of credit developed, the bank would
attempt to sell participations out of the concentration until it was reduced to the lending
limits specified in the Loan Policy. SCB’s management did not comply with its Loan
Policy guidelines.

According to SCB’s Loan Policy, a concentration of credit was defined as direct, indirect,
or contingent obligations of one individual or entity where the aggregate exposure
exceeded 25 percent of the bank’s capital. At the time of the January 2007 examination,
Program loans represented 34.78 percent of the bank’s Tier 1 Capital. The concentration
in Program loans continued and significantly increased through the July 2008
examination and became more pronounced from September 2008 through January 2009.
Contrary to the bank’s Loan Policy, however, SCB did not take action to sell
participations9 from the concentration to comply with limits specified in the Loan Policy
and significantly reduce the risk to the bank. Further, although SCB’s Loan Policy
addressed loan authorities for lending limits, the bank apparently violated LLL 300 times
totaling nearly $24 million.

SCB’s loan policies and procedures did not provide specific guidance related to
monitoring the collateral values for commodity trading-related loans. In addition, FDIC
guidance included in DSC’s Examination Manual and the Agricultural Lending
Examination Documentation Module, dated November 1997, relates to agricultural
lending, underwriting, and loan administration. The guidance recommends that banks
specializing in agricultural lending establish policies and procedures that address the:

         •   limitations on the amount loaned in relation to the value of the collateral for
             loans made by the bank and collateral margins to fund margin call loans; and

         •   limitations/thresholds on the maximum volume of agricultural loans in
             relation to total assets and plans for monitoring and taking appropriate


9
 As a result of the July 2008 examination, SCB took action to participate four of the Program loans for
which the bank had apparently violated the LLL. This issue is discussed in more detail later in this report.

                                                      9
                   corrective action, if deemed necessary, on high-risk agricultural
                   concentrations.

      However, we found no evidence that SCB had incorporated this guidance into its loan
      policies and procedures. Specifically, SCB did not have policies related to the collateral
      limits for Program loans and did not set limitations/thresholds on the amounts loaned to
      Program participants or the volume of high-risk agricultural concentrations, which in this
      case, included the Program loans.

Inadequate ALLL Methodology and Funding

      SCB’s methodology for determining the ALLL did not comply with interagency policy.
      According to Financial Institution Letter (FIL) 105-2006, Interagency Policy Statement
      on the Allowance for Loan and Lease Losses, dated December 13, 2006, each institution
      must analyze the collectibility of its loans and maintain an ALLL at a level that is
      appropriate and determined to be in accordance with Generally Accepted Accounting
      Principles (GAAP).10 An appropriate ALLL covers estimated loan losses on individually
      evaluated loans that are determined to be impaired as well as estimated loan losses
      inherent in the remainder of the bank’s loan and lease portfolio.

      The July 2008 examination identified deficiencies in SCB’s ALLL methodology, and
      examiners concluded that the methodology did not specifically evaluate loans for
      impairment and that reserve allocation calculations for loans not individually reserved for
      had not been quantified. SCB’s president committed to modifying the ALLL
      methodology to adhere with the policy statement.

      In October 2008, SCB’s president requested additional time to develop and provide the
      FDIC with a revised ALLL methodology. The FDIC requested that SCB provide the
      revised ALLL information prior to December 31, 2008. We found no evidence that SCB
      had provided the revised ALLL methodology to the FDIC before the bank failed.

      During the February 2009 visitation, examiners reported that SCB’s ALLL of
      $1.5 million was insufficient to cover loan losses estimated at $31.7 million. As SCB’s
      assets deteriorated, it became apparent that its ALLL was insufficient to absorb loan
      losses and could not be adequately funded.

Heavy Reliance on Volatile Funding Sources

      SCB’s management employed a funding structure that centered heavily on potentially
      volatile funding to cover its growth of high-risk agricultural loans. Those sources of
      funding included brokered deposits and time deposits of $100,000 or more. As stated in

      10
        The policy provides key concepts and requirements pertaining to the ALLL included in GAAP and
      existing supervisory guidance and describes the nature and purpose of the ALLL; the responsibilities of
      BODs, management, and examiners; factors to be considered in the estimation of the ALLL; and the
      objectives and elements of an effective loan review system, including a sound loan grading system.


                                                          10
the DSC Examination Manual, a heavy reliance on potentially volatile liabilities to fund
asset growth is a risky business strategy because the availability and access to these funds
may be limited in the event of deteriorating financial or economic conditions, and assets
may need to be sold at a loss in order to fund deposit withdrawals and other liquidity
needs. However, SCB management did not establish policies or controls that adequately
limited or mitigated the level of risk related to these funding sources. Table 3, which
follows, summarizes SCB’s dependence on high-cost volatile funds used for the
significant increases in Program loans during 2008.

  Table 3: Funding Sources Used for the Significant Increases in Program Loans
                                                                    Net Non-Core Funding
                          Time Deposits                              Dependence (Percent)
                          of $100,000 or          Brokered
                               More               Deposits           SCB          Peer
   Examination Date      (in Thousands)        (in Thousands)
  May 31, 2005                 $8,862                    0           30.08       10.62
  January 16, 2007            $12,293               $1,564           33.57       14.36
  July 21, 2008               $14,405                  $98*          36.89       11.36
  December 31, 2008           $29,468              $19,186           48.68       21.68
 Source: UBPRs for SCB.
 *The July 2008 examination used financial information dated March 31, 2008.

As indicated above:

   •    From the July 2008 examination to December 31, 2008, SCB’s brokered deposits
        increased 1,800 percent—from approximately $98,000 to $19 million.

   •    Time deposits grew from approximately $14.4 million (a 105 percent increase) to
        $29.5 million during the last 6 months of 2008.

   •    During the last quarter of 2008, when SCB funded about $57 million in Program
        loans, brokered deposits grew from $2.9 million to $19 million, or 656 percent.

   •    SCB’s net non-core dependence ratio significantly exceeded the bank’s peer
        group from the May 2005 examination to the December 2008 examination.

The overall deterioration in the bank’s condition affected its access to alternative sources
of funding. Specifically, the FDIC issued a PCA Notification on February 4, 2009 that
restricted the bank’s use of brokered deposits.

Assessment of Third-Party Risk. SCB’s BOD and management did not assess the risk
that the third-party arrangement presented to the bank. The FDIC issued Guidance for
Monitoring Third Party Risks (FIL-44-2008), dated June 8, 2008, which provides
guidance to financial institutions regarding the assessment of risk associated with third-
party arrangements. The guidance (1) describes potential risks arising from third-party
arrangements, (2) outlines risk management principles that may be tailored to suit the
complexity and risk potential of a financial institution’s significant third-party
arrangements, and (3) outlines the potential risks that may arise from the use of third

                                                 11
parties. The guidance also addresses the following three basic elements of an effective
third-party risk management program:

       •   risk assessment;
       •   due diligence in selecting a third party; and
       •   contract structuring, review, and oversight.

According to FIL-44-2008, the financial institution’s BOD and senior management
should understand the nature of associated risks, including, but not limited to:

   Strategic risk - the risk arising from adverse business decisions, or the failure to
   implement appropriate business decisions in a manner that is consistent with the
   institution’s strategic goals.

   Reputation risk - the risk arising from negative public opinion. Third-party
   arrangements can result in dissatisfied customers, interactions not consistent with
   institution policies, inappropriate recommendations, security breaches resulting in the
   disclosure of customer information, and violations of law and regulation.

   Operational risk - the risk of loss resulting from inadequate or failed internal
   processes, people, and systems or from external events.

   Transaction risk - risk arising from problems with service or product delivery. A
   third party’s failure to perform as expected by the customers or financial institution
   due to reasons such as inadequate capacity, technological failure, human error, or
   fraud exposes the institution to transaction risk.

   Credit risk - the risk that a third party, or any other creditor necessary to the third-
   party arrangement, is unable to meet the terms of the contractual arrangements with
   the financial institution or to otherwise financially perform as agreed.

   Compliance risk - the risk arising from violations of laws, rules, or regulations or
   from noncompliance with internal policies or procedures or with the institution’s
   business standards.

SCB’s association with the Program resulted in the bank experiencing a negative impact
in all of the above categories of risk.

The guidance states that the BOD and management are responsible for assessing these
risks as follows:

   •   An institution’s BOD and senior management are ultimately responsible for
       managing activities conducted through third-party arrangements and identifying
       and controlling the risks arising from such arrangements, to the same extent as if
       the activity were handled within the institution.



                                              12
          •   Bank management should tailor the principles included in this guidance to each
              significant third-party arrangement, taking into consideration such factors as the
              complexity, magnitude, and nature of the arrangement and associated risks.

      The failure of SCB’s BOD and management to adequately assess the risk of the Program
      and their decision to increase and fund loan commitments without adequately considering
      the (1) borrowers’ ability to repay and (2) sufficiency of the underlying collateral proved
      detrimental to the viability of the institution and resulted in the bank’s failure and a
      material loss to the DIF.

ASSESSMENT OF SUPERVISION

      The FDIC and NDBF performed oversight of SCB, including conducting risk
      management examinations and visitations. However, we identified one area where
      DSC’s supervision could have been improved. The FDIC could have taken earlier and
      more assertive actions related to SCB’s third-party arrangement. Specifically, the FDIC
      could have done more to consider the risk that the third-party arrangement posed to SCB.
      Although the examiners for the FDIC’s 2005 and 2008 examinations discussed the
      Program with bank management, the FDIC did not fully assess the risk that the third-
      party arrangement and Program posed to SCB. The FDIC recognized during the July
      2008 examination of SCB that there were deficiencies in the bank’s lending activity.
      However, the FDIC did not ensure that SCB’s Loan Policy included adequate guidance to
      limit (1) loan commitments in relation to collateral value or the borrower’s ability to
      repay for Program loans and (2) the concentration in the Program loans.

Historical Snapshot of FDIC Supervision

      The FDIC and NDBF performed alternating safety and soundness examinations of SCB
      in a timely manner, conducting a total of four examinations, beginning November 2003
      through July 2008 (see Table 4, on the next page). The FDIC also conducted three
      visitations between March 2003 and December 2004 due to concerns over litigation and
      investigations directed at SCB’s affiliated broker, the Program, and SCB and its holding
      company (refer to the discussion that follows on page 14 and Appendix 2). In addition,
      the FDIC conducted a visitation in February 2009 after SCB’s management informed the
      FDIC of the significant deterioration in the bank’s financial condition. SCB’s composite
      ratings remained at 2 until the February 2009 visitation when the bank’s composite rating
      was downgraded to 5, indicating extremely unsafe and unsound practices or conditions,
      critically deficient performance, and inadequate risk management practices.




                                                   13
       Table 4: Examination Dates and CAMELS Ratings
        Examination Date      Examination Conducted By     CAMELS Ratings
            11/17/2003                  State                  122111/2
            05/31/2005                 FDIC                    222111/2
            01/16/2007                  State                  122112/2
            07/21/2008                 FDIC                    222121/2
            02/02/2009                  Joint                  555555/5
      Source: ROEs for SCB.

The FDIC examiners identified and reported concerns such as apparent violations of laws
and regulations and repeat apparent contraventions of interagency policies. In addition,
the examiners made recommendations to SCB to improve risk management and loan
underwriting and credit administration issues.

Further, to address examiner concerns documented during a Federal Reserve Bank (FRB)
March 2004 visitation (refer to Appendix 2 for additional information), the FDIC and
NDBF requested that SCB adopt a Bank Board Resolution (BBR), which the bank’s
BOD adopted on July 14, 2004. The BBR resulted from the FDIC’s concerns over
SCB’s potential liability in an outstanding lawsuit by the Commodity Futures Trading
Commission (CFTC) and National Futures Association (NFA) and required the bank to
manage its capital position in anticipation of any judgment that might result from the suit.
The BBR contained one provision restricting cash dividends, capital distributions,
earnings distributions, or management fees in excess of $100,000 per calendar quarter,
without the prior written consent of the FDIC and NDBF. Also, the FDIC placed SCB on
a Supervisory Watchlist due to pending litigation and settlement as a result of the
CFTC/NFA lawsuit. Once that lawsuit was settled in 2007, the FDIC removed SCB from
the Watchlist.

In addition, in October 2008, SCB’s holding company submitted an application to
participate in the Troubled Asset Relief Program’s (TARP) Capital Purchase Program,
administered by the United States Department of the Treasury (Treasury), and requested
$2.8 million in funds. In December 2008, the FDIC approved the request and referred it
to the Treasury, which also approved SCB’s TARP request. In January 2009, SCB’s
president and chairman requested a meeting with the FDIC and informed the FDIC that
the bank was likely insolvent due to expected losses on loans related to activities directed
by the Program’s broker. During that meeting, SCB’s president provided details
regarding the Program and the bank’s substantially deteriorated financial condition since
the FDIC’s last full-scope examination in July 2008. On January 30, 2009, SCB’s
president requested an increase in TARP funds. However, due to significant declines in
the bank’s financial condition and the inability to certify that there had not been a
material change in the bank’s status, SCB’s president withdrew the bank’s request for
TARP funds.




                                                14
      As previously discussed, based on SCB’s disclosure of the bank’s financial deterioration,
      the FDIC initiated a visitation of SCB on February 2, 2009. On February 7, 2009, the
      FDIC issued a Cease and Desist Order (C&D), which required SCB to:

         •   Eliminate charge-offs of adversely classified assets and contingent liabilities.

         •   Maintain an appropriate ALLL.

         •   Increase and maintain a sufficient level of capital for a Total Risk-Based Capital
             Ratio of not less than 12 percent and a Tier 1 Leverage Capital Ratio of not less
             than 8 percent.

         •   Submit a written plan to the FDIC and NDBF, describing the primary means and
             timing by which to increase capital, as well as a contingency plan for the sale,
             merger, or liquidation of the bank.

         •   Not declare or pay any cash dividends without the prior written approval of the
             supervisory authorities.

         •   Not extend any additional credit to, or for the benefit of, any borrower who had a
             loan or other extension of credit or obligation with the bank that has been charged
             off or adversely classified.

         •   Eliminate and/or correct violations of law.

         •   Immediately improve liquidity and funds management to include a written
             liquidity analysis and projection for the sources and uses of funds.

      On February 5, 2009, the NDBF informed SCB that the bank needed to obtain additional
      capital totaling $34.1 million by February 12, 2009. Because the bank was unable to
      raise the additional capital, the NDBF closed the bank on February 13, 2009.

OIG Assessment of FDIC Supervision

      The FDIC provided regular examinations of SCB and reported some of the issues in the
      July 2008 examination that were ultimately related to the bank’s failure. However, we
      concluded that the FDIC’s supervision and assessment of the risk that the third-party
      arrangement presented to the bank, including an assessment of the bank’s Loan Policy
      related to the Program, could have been improved. A more complete assessment would
      have included a determination of how the bank was measuring, monitoring, and
      controlling risks associated with the institution’s significant third-party arrangement.

      The FDIC’s and other regulators’ concerns regarding the Program date back to, at least,
      2004. In conjunction with the FRB and NDBF, the FDIC conducted a visitation of SCB
      in March 2004 that focused on the CFTC and NFA investigation of the third-party
      commodity broker and the conflict of interest relating to the dual roles of SCB’s vice


                                                  15
president. The activities of the broker in SCB’s third-party arrangement prompted
lawsuits by some of the broker’s customers (some of who were also SCB borrowers).
The customers alleged that the broker had acted inappropriately by engaging in trading
activities outside the scope of the Program and, consequently, caused significant losses to
SCB customers who were participating in the Program.

Third-Party Risks Related to the Program. The FDIC could have done more to
consider the risk presented by the Program to ensure that SCB established and
appropriately implemented risk management controls over the Program’s broker.

     FDIC Follow-up on Regulatory Concerns. According to the FDIC, as part of its
     follow-up to the CFTC/NFA concerns, examiners reviewed documents to ensure that
     SCB management abided by the terms and provisions of the final CFTC/NFA
     agreement. The FDIC reviewed the Program during the visitation conducted in
     December 2004 and the FDIC examinations conducted in May 2005 and July 2008,11
     after the FRB issued its 2004 inspection report.12 However, the FDIC did not
     adequately follow up on the risk that the third-party arrangement presented to SCB to
     ensure that the bank established and appropriately implemented controls to prevent
     excessive funding of high-risk agricultural loans.

     During the 2005 and 2008 FDIC examinations, the FDIC assigned a Subject Matter
     Expert (SME) to review SCB’s commodity marketing program. According to the
     FDIC, the SME performed a thorough evaluation of the marketing Program to
     determine whether the Program was working as intended and that Program objectives
     were in place. However, the analyses and results of the reviews of the Program were
     not summarized and documented in the ROEs or the related examination work
     papers, and these reviews did not consider the risk that the Program presented to
     SCB.

     Heightened Risk to SCB. The third-party arrangement heightened risk to SCB
     because (1) the bank used only one broker for the Program, (2) the broker made
     “batch orders” for all participants at one time, (3) one bank (SCB) funded all of the
     loans for each of the 34 Program participants, and (4) the third-party agreement
     provided for open-ended funding. Although the agreement also allowed the bank to
     discontinue funding when deemed necessary, SCB did not implement this control.
     The third-party agreements that the bank and participants signed were in effect prior
     to the FDIC’s 2009 visitation which occurred after a January 2009 meeting with SCB.
     In addition, the FDIC did not question (1) loan underwriting and credit administration
     weaknesses resulting in open-ended funding for the 34 Program loans and (2) Loan


11
  The NDBF conducted the 2007 examination of SCB.
12
  FRB’s 2004 inspection concluded that risk management practices related to SCB’s third-party
arrangement with the broker, including oversight of trading strategies that the broker was authorized to
offer to SCB customers, were inadequate and constituted a conflict of interest for the bank. The FRB made
several recommendations to improve the bank’s oversight of the third-party arrangement. Among other
things, the FRB concluded that the third-party broker presented significant operational, legal, and
reputational risk for the parent company.

                                                   16
      Policy deficiencies that resulted in substantial risk to SCB, inadequate collateral, and
      material apparent violations of the State of Nebraska’s LLL.

Examples of the FDIC’s examination/visitation comments related to SCB’s Program and
the third-party broker are shown below in Table 5.13

 Table 5: Examples of FDIC Comments Regarding the Program and SCB
       Date                              Examination Comments and/or Concerns
     March      The purpose of the visitation was to gain a better understanding of the broker’s agricultural
     2004       commodities marketing activities that prompted lawsuits by four of the broker’s former
                customers and an investigation by the CFTC and NFA. The customers alleged that the broker
                had acted inappropriately by engaging in speculative rather than hedging transactions. The
                FRB identified inadequate risk management controls over SCB’s broker.

     December   This visitation focused on the implications of negative publicity against SCB and the bank’s
     2004       holding company due to the CFTC/NFA law suit.

     May        SCB’s holding company was affiliated with the broker and owned 50 percent of the brokerage
     2005       company. After the 2004 FRB inspection, the only identified connection between the holding
                company and the brokerage firm was that the holding company continued to own a
                commercial building that it leased to the new, unaffiliated broker.

     July       The FDIC concluded that credit concentrations funded by SCB to cover the Program activities
     2008       increased from $2.9 million, reported in the NDBF’s 2007 examination, to $16 million, or
                183 percent of Tier 1 Capital. SCB violated the state’s LLL law by $410,000. Of this
                amount, $218,000 was extended to fund advances to cover trading activities. A substantial
                increase in 2008 agricultural operating costs, including costs to fund requirements for the
                broker’s hedging activities, had required bank officials to arrange numerous credit
                participation loans to comply with legal lending requirements. The FDIC further concluded
                that although loan officers paid close attention to lending limitations at loan origination,
                improved monitoring of the day-to-day lending limit was warranted.

     February   On January 30, 2009, SCB’s president informed the FDIC that approximately 35 borrowers*
     2009       would sustain catastrophic losses related to the Program loans SCB had funded. The
                corresponding debt at SCB associated with the Program (fees and funding requests) was
                estimated by bank management to be about $60 million. According to the FDIC, SCB’s
                president informed the FDIC that many of the borrowers did not have the capacity to repay
                the debt. According to the FDIC’s problem bank memorandum, dated February 2, 2009, most
                of the bank’s exposure appeared to relate to SCB’s rapid increase in the funding of these loans
                during the fourth quarter of 2008 in an ill-fated attempt to offset significant declines in corn
                prices and associated losses to Program participants.

 Source: FDIC examinations, visitations, and other supervisory documentation.
 * It was later determined that there were only 34 borrowers.

As indicated above, the FDIC’s assessment of the Program did not take into consideration
the risk that the Program presented to SCB. SCB disclosed the bank’s substantial
financial deterioration to the FDIC on January 30, 2009, that is, reporting the substantial
loan losses from advances made for the Program participants. As a result, the FDIC took

13
  The January 2007 NDBF examination concluded that SCB had found a “niche” in funding requirements
for the Program participants, with SCB funding of $2.9 million in Program loans that represented 34.78
percent of Tier 1 Capital.

                                                    17
quick and decisive action 3 days later and began an onsite examination of SCB on
February 2, 2009 to more accurately identify the extent of losses in the bank’s loan
portfolio.

Noncompliance with Examination Guidance Related to Third-Party Risk. During
2007, the FDIC included third-party-related guidance in (1) the FDIC’s Supervisory
Insights Summer 2007 article and (2) a Regional Directors Memorandum (Transmittal
2008-020), Guidance for Monitoring Third Party Risks, dated June 8, 2008. However,
FDIC examiners could have more fully considered and adequately documented their use
or consideration of this guidance during the July 2008 examination of SCB.

   Guidance in Supervisory Insights Summer 2007. This article addresses the benefits
   and potential risks associated with third-party agreements and offers some best
   practices to assist banks in avoiding the financial losses and reputation risks that can
   result from poorly managed third-party arrangements. The article also states that
   third-party arrangements can present risks and discusses how failure to manage these
   risks can expose a financial institution to everything from financial loss to regulatory
   action and loss of customer relationships. The article also states that inadequate
   management and control of third-party risks can result in a significant financial
   impact on an institution.

   Guidance in Transmittal 2008-020. This guidance forms a general framework that
   BOD and senior management may use to provide appropriate oversight and risk
   management of any significant third-party arrangement. The principles and
   procedures outlined in this guidance should serve as a resource to ensure that risks
   arising from third-party arrangements are appropriately managed. The guidance also:

       •   states that supervisory efforts should be focused on assessing, measuring,
           monitoring, and controlling risks associated with an institution’s significant
           third-party arrangement; and

       •   stresses the effects that third parties could have on key aspects of a bank’s
           performance, such as earnings, asset quality, liquidity, rate sensitivity, and the
           institution’s ability to comply with laws and regulations.

DSC’s Examination Manual states that situations occasionally arise where the safety and
soundness of an insured depository institution is materially affected by transactions,
contracts, or business arrangements with parties that are not affiliated with the institution.
When such situations arise, the FDIC should examine the other side of the transaction.
The potential impact of these business relationships on the insured depository institution
necessitates a complete understanding of the nature of the transaction and relationship
and its effect on the insured institution. The guidance also states that, by statute, the
FDIC has authority to obtain records of unaffiliated service providers and other
counterparties relating to an insured financial institution. The information that the FDIC
can obtain from an unaffiliated service provider or other counterparty is not limited to
specific transactions with, or relating to, the insured depository institution but can extend


                                             18
to the financial books and records of the servicer or entity so long as such documents are
needed in furtherance of an examination that relates to the affairs of an insured bank.

The FDIC could have done more to identify, evaluate, or monitor the risks associated
with SCB’s third-party arrangement. Not doing so resulted in the FDIC’s inability to
ensure that SCB had appropriate procedures in place to address the complexity and risk
potential of the Program. Program participant losses escalated during the last quarter of
2008 and early 2009. Attempts to recover from the losses to Program participants
resulted in significant loan advances, totaling $46.2 million, through the bank’s open-
ended funding practices, from October 2008 to January 2009, leading to SCB’s failure on
February 13, 2009.

Loan Policy. In the FDIC’s July 2008 ROE, examiners recognized that SCB had
significantly increased the amount of funding for Program loans, had apparent violations
of the State of Nebraska’s LLL, and needed to improve its day-to-day loan monitoring of
lending to ensure the bank complied with the LLL requirements. However, the FDIC
did not ensure that SCB’s Loan Policy included adequate guidance to limit (1) loan
commitments in relation to collateral value and a borrower’s ability to repay Program
loans and (2) the concentration in Program loans.

DSC’s Examination Manual states that the examiner’s evaluation of a bank’s credit
administration and loan policies and the quality of the loan portfolio are among the most
important aspects of the examination process. However, FDIC examiners did not
adequately assess SCB’s loan policies and procedures to ensure that appropriate controls
were in place to mitigate third-party risks related to the Program. As discussed on page 9
of this report, DSC’s Agricultural Lending Examination Documentation Module provides
guidance to examiners to use when evaluating agricultural lending. The bank’s Loan
Policy included some guidance related to agricultural loans (as discussed on page 9).
However, the bank’s Loan Policy did not include guidance related to:

       •   limitations on the amount loaned in relation to the value of the collateral for
           loans made by the bank and collateral margins to fund margin call loans (i.e.,
           Program loans) and

       •   limitations/thresholds on the maximum volume of agricultural loans in
           relation to total assets and plans for monitoring and taking appropriate
           corrective action, if deemed necessary, on high-risk agricultural
           concentrations (i.e., Program loans).

The FDIC examiners did not ensure that SCB’s Loan Policy and procedures (1) included
adequate guidance to ensure that SCB’s management adjusted collateral value,
(2) considered the borrower’s ability to repay before increasing loan commitments, or
(3) set limitations/thresholds on the amounts advanced to program participants or the
volume of higher-risk agricultural loans. SCB’s Loan Policy addressed agricultural loans
but did not specifically address possible concentrations in Program loans and the risk that
the concentration might present to the bank. Greater supervisory concern by the FDIC


                                            19
    regarding the adequacy of SCB’s loan policies could have led to elevated supervisory
    attention and earlier supervisory action.

    Conclusion. The FDIC could have done more to consider and mitigate the bank’s risks
    associated with the Program before the bank’s financial condition had significantly
    deteriorated. The FDIC’s SME focused attention on some areas of the Program during
    the FDIC’s 2005 and 2008 examinations. However, additional attention was needed to
    analyze/monitor the SCB’s control weaknesses associated with the risks that the Program
    presented to the bank, including the concentration in Program loans, loan underwriting
    and credit administration deficiencies, inadequate loan policies, and apparent violations
    of the LLL. Although the FDIC issued examiner guidance related to third-party risk in
    2007 and June 2008, that guidance was not fully used to assess the risk that SCB’s third-
    party arrangement presented to the bank. FDIC officials stated that the three-way
    arrangement was a normal industry practice for agriculture-related loans and that the
    FDIC did not consider the arrangement to present elevated risk to the bank. However, all
    34 Program participants used the same third-party broker to place trading orders, and the
    same bank, which in this case was SCB, funded the Program loans. The risk associated
    with the Program caused severe financial deterioration and ultimately led to SCB’s
    failure and a material loss to the DIF.

IMPLEMENTATION OF PCA

    The purpose of PCA is to resolve problems of insured depository institutions at the least
    possible long-term cost to the DIF. PCA establishes a system of restrictions and
    mandatory and discretionary supervisory actions that are to be triggered depending on an
    institution’s capital levels. Part 325 of the FDIC’s Rules and Regulations implements
    PCA requirements by establishing a framework for taking prompt corrective action
    against insured nonmember banks that are not adequately capitalized.

    SCB was categorized as Critically Undercapitalized, under PCA provisions, just prior to
    its failure. As a result, the FDIC issued a C&D that contained a capital provision,
    directing SCB to increase its capital. The C&D was issued on February 7, 2009, 6 days
    before the bank was closed. SCB received a capital component rating of 1 or 2 for each
    of the four examinations conducted from November 2003 through July 2008. The capital
    component was downgraded to a 5 rating during the February 2009 visitation. The
    downgrade in February 2009 resulted from the bank’s critically deficient level of capital
    due to severe asset quality problems and losses that rapidly eroded the bank’s capital
    position.

    Table 6, which follows, shows how SCB’s capital ratios compared to the bank’s peer
    group for three of the bank’s examinations and as of December 31, 2008.




                                               20
            Table 6: SCB’s Capital Ratios Compared to Peer Group

                               Tier 1 Leverage        Tier 1 Risk-        Total Risk-Based
              Examination         Capital %         Based Capital %          Capital %
                  Dates        Bank       Peer      Bank      Peer        Bank        Peer
              May 2005         9.29        9.62     13.46     14.58       14.73       15.72
              Jan 2007         9.61       10.02     12.33     14.56       13.59       15.65
              July 2008        8.98        9.77     10.63     14.24       11.87       15.27
              Dec 2008*        8.96        9.31      9.51     13.01       10.74       14.09
            Source: ROEs and UBPRs for SCB.
            *UBPR dated December 31, 2008.

    As indicated above, SCB’s capital ratios were slightly below the bank’s peer group
    through December 2008.

    PCA’s focus is on capital, and capital can be a lagging indicator of an institution’s
    financial health. In addition, the use of PCA Directives depends on the accuracy of
    capital ratios in an institution’s financial data. SCB’s capital designation for PCA
    purposes remained in the Well Capitalized range through the July 2008 examination.14
    However, the BOD did not ensure that the institution had sufficient capital to support the
    significant increase in lending activities. Due to SCB’s funding of $46.2 million for
    Program loans from October 2008 to January 2009, SCB’s capital level fell to Critically
    Undercapitalized in January 2009. In February 2009, the FDIC notified the BOD of the
    bank’s change in PCA category to Critically Undercapitalized, subjecting the bank to
    brokered deposit rate restrictions. On February 5, 2009, the NDBF notified the bank that
    a capital infusion of $34.1 million was required by February 12, 2009. However, SCB
    was unable to obtain additional capital and was closed on February 13, 2009.

CORPORATION COMMENTS

    On September 3, 2009, the Director, DSC, provided a written response to the draft report.
    DSC’s response is provided in its entirety as Appendix 4 of this report. In its response,
    DSC reiterated that SCB failed primarily due to the BOD’s and management’s decision
    to increase and fund loans without adequately considering the borrowers’ ability to repay
    and the sufficiency of the underlying collateral. DSC also stated that the Program
    parameters were violated when the hedged position was allowed to lapse on
    September 26, 2008, and SCB continued to fund speculative positions. DSC also stated
    that while the Program loans represented a concentration at the time of the July 2008
    examination, the Program was operating within its parameters and that there was more
    than adequate commodity and market account collateral to repay the outstanding loans.
    DSC continued that examiners had discussed the importance of the Program hedging
    parameters and LLL with SCB management during the 2008 examination, yet
    management ignored internal controls and LLL only 3 months later.



    14
     In December 2008, SCB’s holding company injected $2.5 million in capital into SCB to maintain the
    Well Capitalized ratio.

                                                     21
DSC acknowledged that earlier and more complete recognition of the risks posed by the
single-broker arrangement and the weaknesses in SCB’s internal controls could have led
to elevated supervisory attention and more timely supervisory action. DSC also
acknowledged the importance of commodity price protection programs to the agriculture
industry and supports well-controlled risk management programs designed to hedge
against commodity market price fluctuations.




                                          22
                                                                                    APPENDIX 1
                            OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      We performed this audit in accordance with section 38(k) of the FDI Act, which provides
      that if a deposit insurance fund incurs a material loss with respect to an insured
      depository institution, the Inspector General of the appropriate federal banking agency
      shall prepare a report to that agency reviewing the agency’s supervision of the institution.
      The FDI Act requires that the report be completed within 6 months after it becomes
      apparent that a material loss has been incurred.

      Our audit objectives were to (1) determine the causes of the financial institution’s failure
      and resulting material loss to the DIF and (2) evaluate the FDIC’s supervision of the
      institution, including implementation of the PCA provisions of section 38.

      We conducted the audit from February 2009 to August 2009 in accordance with generally
      accepted government auditing standards. However, due to the limited scope and
      objectives established for material loss reviews, which are generally applied to just one
      financial institution, it may not have been feasible to address certain aspects of the
      standards, as described on the next page.


Scope and Methodology

      The scope of this audit included an analysis of SCB’s operations from November 2003
      until its failure on February 13, 2009. Our review also entailed an evaluation of the
      regulatory supervision of the institution from 2003 to 2009.

      To achieve the objectives, we performed the following procedures and techniques:

             •   Analyzed examination and visitation reports prepared by the FDIC and NDBF
                 from 2003 to 2009.

             •   Reviewed the following:

                   •   Bank data and correspondence maintained at DSC’s Kansas City Regional
                       Office and Grand Island Field Office, and NDBF.

                   •   Bank records maintained by DRR in Dallas, Texas.

                   •   Records of the bank’s external auditor prepared by Shonsey and Associates,
                       Grand Island, Nebraska.

                   •   Pertinent DSC policies and procedures.

             •   Interviewed the following FDIC officials:


                                                     23
                                                                                    APPENDIX 1


                 •   DSC management in Washington, D.C.; Kansas City, Missouri; and Grand
                     Island, Nebraska.

                 •   FDIC examiners from the DSC Grand Island Field Office who participated
                     in SCB examinations.

           •   Met with officials from the NDBF, Lincoln, Nebraska, to discuss their historical
               perspective of the institution, its examinations, state banking laws, and other
               activities regarding the NDBF’s supervision of the bank.

      We performed the audit field work at the DSC offices in Kansas City, Missouri, and
      Grand Island, Nebraska.

      Our ability to evaluate certain issues related to the Program activities and related loans
      were restricted due to the lack of certain documents, such as copies of three-way
      agreements, promissory notes, and broker’s records.


Internal Control, Reliance on Computer-processed Information, Performance
Measurement, and Compliance With Laws and Regulations

      Due to the limited nature of the audit objectives, we did not assess DSC’s overall internal
      control or management control structure. We performed a limited review of SCB’s
      management controls pertaining to its operations as discussed in the body of this report.

      We obtained data from various systems but determined that information system controls
      were not significant to the audit objectives, and, therefore, we did not evaluate the
      effectiveness of information system controls. We relied on our analysis of information
      from various sources, including ROEs, correspondence files, and testimonial evidence to
      corroborate data obtained from systems that were used to support our audit conclusions.

      The Government Performance and Results Act of 1993 (the Results Act) directs
      Executive Branch agencies to develop a customer-focused strategic plan, align agency
      programs and activities with concrete missions and goals, and prepare and report on
      annual performance plans. For this material loss review, we did not assess the strengths
      and weaknesses of DSC’s annual performance plan in meeting the requirements of the
      Results Act because such an assessment is not part of the audit objectives. DSC’s
      compliance with the Results Act is reviewed in program audits of DSC operations.

      Regarding compliance with laws and regulations, we performed tests to determine
      whether the FDIC had complied with provisions of PCA and limited tests to determine
      compliance with certain aspects of the FDI Act. The results of our tests were discussed,
      where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
      related to our objectives in the course of evaluating audit evidence.



                                                   24
                                                                                              APPENDIX 2

                ADDITIONAL REGULATORY ACTIVITIES RELATED TO SCB


2004 Lawsuit and Investigation

      In 2004, the activities of the broker in SCB’s third-party arrangement prompted lawsuits
      by some of the broker’s customers (some of who were also SCB borrowers) as well as an
      investigation by the CFTC and NFA. The customers alleged that the broker had acted
      inappropriately by engaging in trading activities outside the scope of the Program
      (i.e., executed speculative transactions instead of hedging transactions) and,
      consequently, caused significant losses to SCB customers who were participating in the
      Program. At the time of the lawsuit and investigation, the broker was considered an
      “affiliated15 broker” because 50 percent of the brokerage company was owned by SCB’s
      holding company and 50 percent was owned by SCB’s vice president who was also a
      loan officer of SCB. Because SCB’s vice president was affiliated with the broker, the
      CFTC obtained a consent order of preliminary injunction against the broker and the
      bank’s vice president. The injunction was agreed to by all parties and required the third-
      party broker and SCB’s vice president to operate within the CFTC’s rules and
      regulations.

      As a result of CFTC/NFA investigation, the FDIC and NDBF conducted a visitation of
      SCB in March 2004 that focused on the commodity marketing activities of the affiliated
      broker. During the visitation, regulators identified a conflict of interest relating to the
      dual roles of SCB’s vice president because he was acting as both a broker and a loan
      officer of SCB. On March 31, 2004, the CFTC and NFA requested that SCB’s vice
      president, the bank’s holding company—SCB, Incorporated, and SCB be removed from
      all ownership of and/or direct involvement in commodities trading. In May 2004, the
      CFTC and NFA approved a new unaffiliated broker16 who took over management of the
      Program and continued to manage it until the bank’s failure in February 2009. From May
      2004 until January 2009, the new unaffiliated broker handled the Program’s marketing
      strategies, and SCB continued to provide loan advances to the broker to fund participants’
      commodity trading accounts.

FRB Inspection

      In conjunction with the March 2004 FDIC and NDBF visitation, the FRB, which is
      responsible for regulation and supervision of bank holding companies, conducted a
      targeted inspection of SCB, Incorporated, SCB’s holding company, to (1) learn more
      about the trading losses incurred by that company’s nonbank subsidiary, the then
      affiliated broker, (2) understand the issues surrounding the CFTC and NFA investigation
      of the broker; and (3) determine what effects, if any, the CFTC/NFA investigations might
      have on the parent company. The FRB determined that the overall financial condition of
      the parent company, a one-bank financial holding company, owning 100 percent of SCB
      and 50 percent of the brokerage company, had declined but was considered to be fair.
      15
        An affiliate is a business concern owned or controlled in whole or in part by another concern.
      16
        Although the new broker was considered to be unaffiliated, the brokerage firm consisted of employees of
      the prior affiliated broker and rented office space from SCB’s holding company.
                                                         25
                                                                           APPENDIX 2


However, the financial condition of the brokerage company had deteriorated significantly
and was considered to be unsatisfactory. The brokerage company’s problems were
directly related to customers’ losses stemming from the broker’s commodity brokerage
activities.

The FRB concluded the following.

      SCB’s BOD and management were not adequately overseeing the broker’s
       investment strategies, activities, and personnel.

      The risk associated with SCB’s financing loans for agricultural producers was a
       primary risk for the institution. The parent company’s financial success was
       directly linked to the success of SCB, whose ability to maintain a steady course
       despite volatile swings in agricultural markets was paramount to the company’s
       and the bank’s success.

      The broker seemed to be a source of significant operational, legal, and
       reputational risk for the parent company.

   Accordingly, as a one-bank holding company, the risk presented by the broker also
   spilled over to the bank—SCB. The FRB’s inspection report outlined specific
   concerns, including the appropriateness of the broker’s marketing strategies and the
   type of trades the broker made for the Program participants. The FRB’s inspection
   resulted in recommendations to improve oversight and monitoring of the broker’s
   activity by SCB management.




                                           26
                                                                                       APPENDIX 3
                                     GLOSSARY OF TERMS


      Term                                                  Definition
Adversely           Assets subject to criticism and/or comment in an examination report. Adversely
Classified Assets   classified assets are allocated on the basis of risk (lowest to highest) into three
                    categories: Substandard, Doubtful, and Loss.

Allowance for       Federally insured depository institutions must maintain an ALLL that is adequate to
Loan and Lease      absorb the estimated loan losses associated with the loan and lease portfolio (including
Losses (ALLL)       all binding commitments to lend). To the extent not provided for in a separate liability
                    account, the ALLL should also be sufficient to absorb estimated loan losses associated
                    with off-balance sheet loan instruments such as standby letters of loan.

Cease and Desist    A C&D is a formal enforcement action issued by a financial institution regulator to a
Order (C&D)         bank or affiliated party to stop an unsafe or unsound practice or a violation of laws and
                    regulations. A C&D may be terminated when the bank’s condition has significantly
                    improved and the action is no longer needed or the bank has materially complied with
                    its terms.

Commodity           The federal regulatory agency established by the Commodity Futures Trading Act of
Futures Trading     1974 to administer the Commodity Exchange Act.
Association

Concentration       A concentration is a significantly large volume of economically related assets that an
                    institution has advanced or committed to a certain industry, person, entity, or affiliated
                    group. These assets may, in the aggregate, present a substantial risk to the safety and
                    soundness of the institution.

Margin              The required level of equity/funding that the Program participants were required to
                    maintain in the commodity Program account.

National Futures    A self-regulatory organization whose members include futures commission merchants
Association         and introducing brokers. NFA is responsible—under CFTC oversight—for certain
                    aspects of the regulation of futures commission merchants and introducing brokers,
                    focusing primarily on the qualifications and proficiency, financial condition, retail
                    sales practices, and business conduct of these futures professionals.

Prompt              The purpose of PCA is to resolve the problems of insured depository institutions at the
Corrective Action   least possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations,
(PCA)               12 Code of Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code section 1831o, by
                    establishing a framework for taking prompt supervisory actions against insured
                    nonmember banks that are less than adequately capitalized. The following terms are
                    used to describe capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                    (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                    Undercapitalized.

                    A PCA Directive is a formal enforcement action seeking corrective action or
                    compliance with the PCA statute with respect to an institution that falls within any of
                    the three categories of undercapitalized institutions.

                                                   27
                                                                                 APPENDIX 3



Uniform Bank    The UBPR is an individual analysis of financial institution financial data and ratios
Performance     that includes extensive comparisons to peer group performance. The report is
Report (UBPR)   produced by the Federal Financial Institutions Examination Council for the use of
                banking supervisors, bankers, and the general public and is produced quarterly from
                Call Report data submitted by banks.




                                              28
                                                                                                                               APPENDIX    4
                                              CORPORATION COMMENTS
.¡¡¡V.WIo. ¡¡¡i     ;¡ u ¡ n                  ¡;¡li¡             aAC .w                    ii." hMlf_lhPln. . I                           ...




                  FDII
                  Federal Deposit Insurance Corporation
                  550 17th Street NW, Washington, DC. 2029.999                           Di~sion 01 Supesion an Consumer P'OIec1on



                                                                                          September 3. 2009


                  MEMORANDUM TO:                       Russell A. Rau
                                                       Assistant Inspector General for Audits

                  FROM:                                 Sandra L. Thompson
                                                        Director

                  SUBJECT:                              Draft Audit Report Entitled, Material Loss Review of Sherman
                                                        County Bank, Loup City Nebraska
                                                        (Assignment No. 2009-026)

                  Pursuant to Section 38(k) of the Federal Deposit Insurance Act (FDI Act), the Federal Deposit
                  Insurance Corpration's Offce of    Inspector General (OIG) conducted a material loss review of
                  Sherman County Bank (Sherman) which failed on February 13,2009. This memorandum is the
                  response of the Division of Supervision and Consumer Protection (DSC) to the OlG's Draft
                  Audit Report (Report) received on August 6, 2009.

                  Sherman failed primarily due to Board and management's decision to increase and fund loans
                  without adequately considering the borrower's ability to repay and the suffciency of the
                  underlying collateraL. These loans were supposed to provide borrower funding for participation
                  in a commodity market hedging program (Program) for com crops and be fully secured at all
                  times based upon the Program parameters. The Program parameters were violated when the
                  hedged position was allowed to lapse on September 26, 2008, and Sherman continued to fund
                   speculative positions. While the Program loans represented a concentration at the time of                the
                   July 2008 examination, the Program was operating within its parameters and there was more
                   than adequate commodity and market account collateral to repay the outstanding loans.
                   Examiners discussed the importance of          the Program hedging parameters and legal        lending limits
                   with Sherman management and yet management ignored internal controls and legal lending
                   limits only three months later.

                   The Report found that the FDIC and the Nebraska Department of    Banking and Finance
                   conducted timely and regular safety and soundness visitations and examinations olSherman.
                   The Report also found that the FDIC could have done more to consider the risk the third-party
                   broker arrangement posed to Shennan. We acknowledge the Report's findings that earlier and
                   more complete recognition of the risks posed by the single broker arrangement and the
                   weaknesses in Sherman's internal controls could have led to elevated supervisory attention and
                   more timely supervisory action. DSC also acknowledges the importance of commodity price
                   protection programs to the agricultural industry and supports well-controlled risk management
                   programs designed to hedge against commodity market price fluctuations.

                   Thank you for the opportunity to review and comment on the Draft Audit Report.




                                                                          29
                                                                APPENDIX 5
              ACRONYMS USED IN THE REPORT


   Acronym                                Definition
ALLL         Allowance for Loan and Lease Losses
BBR          Bank Board Resolution
BOD          Board of Directors
C&D          Cease and Desist Order
CAMELS       Capital, Asset Quality, Management, Earnings, Liquidity, and
             Sensitivity to Market Risk
CFTC         Commodities Futures Trading Commission
DIF          Deposit Insurance Fund
DRR          Division of Resolutions and Receiverships
DSC          Division of Supervision and Consumer Protection
FDI          Federal Deposit Insurance
FIL          Financial Institution Letter
FRB          Federal Reserve Bank
GAAP         Generally Acceptable Accounting Principles
LLL          Legal Lending Limits
NDBF         Nebraska Department of Banking and Finance
NFA          National Futures Association
OIG          Office of Inspector General
PCA          Prompt Corrective Action
ROE          Report of Examination
SCB          Sherman County Bank
SME          Subject Matter Expert
TARP         Troubled Asset Relief Program
UBPR         Uniform Bank Performance Report
UFIRS        Uniform Financial Institutions Rating System




                                 30
